*1-5263
A

No:

/

Supreme Court, U.S.
FILED

JUN 2 6 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2021

DERRICK EDWARDS - PETITIONER

vs.
DARREL VANNOY WARDEN
LOUISIANA STATE PENITENTIARY - RESPONDENTS)

ON PETITION FOR WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

DERRICK EDWARDS # 621889
MAIN PRISON-EAST YARD
LOUISIANA STATE PENITENTIARY
ANGOLA, LOUISIANA, 70712

TABLE OF CONTENTS
OPINIONS BELOW.

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED.

.3

STATEMENT OF THE CASE..—

.4

REASONS FOR GRANTING THE WRIT._____

.7

CONCLUSION.

16

TABLE OF AUTHORITIES CITED

Page

CASES
U.S. Supreme Court
In re Winship, 397 U.S. 358,90 S. Ct. 1068,25 L. Ed. 2d 368

10

Gideon v. Wainwright, 372 U.S. 335,344, 83 S.Ct. 792, 796, 9 L. Ed.2d 799 (1963)
13
Mulianey v, Wilber, 421 U.S. 684.

7,9,10

Sandstrom v, Montana, 442 U.S. 510,99 S. Ct.

7,9,10

Strickland v. Washington, 466 U.S. 668 (1984)

7,9,10,14

Federal Court
Neafyv. Cabana, 764 F.2d 1173 (5th Cir. 1985)

15

Louisiana State Court
Slate v Edwards, No. 49,635-KA, 2/26/15

4

State v Edwards, No. 2015-K-0628 2/5/2016

4

CONSTITUTIONAL PROVISIONS
Fifth Amendment
Sixth Amendment
Fourteenth Amendment
STATUTES AND RULES
Louisiana Revised Statute 14:31.
Louisiana Revised Statute 14:30.1,
l.

UST OF PARTIES

Ml parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition
as follows:

DISTRICT ATTOR NEY, 1 ST JDC
CADDO PARISH
$01 TEXAS STREET
SHREVEPORT, LA., 71101-0000

QUESHOH(S) PRESENTED

1.

Did the Trial court erred in giving erroneous burden
shilling jury instruction on manslaughter, (LSA

14:31) in violation of petitioner's right to due process
U.& Const. 5th &14th;
Muflaney v. Wilber, 421 U.S. 684; Sands from v. Montana, 442 U.S. 510,99 S. Ct.
2450

2.

Whether petitioner was denied his constitutional right

to have effective assistance of counsel wften (1) Counsel
failed to object to unconstitutional burden shifting jury
instruction given by court in violation of the 5th, 14% 6%
Amendment to the U.S. Constitution;

IN THE
SUPREME COURTOFTHEUNITEDSTATES
PETITION FOR WRIT OF CERTIORARI

The Petitioner, Derrick Edwards, respectfully prays that a writ of certiorari issue
to review the Judgment of the Fifth Circuit Court of Appeals.
OPINIONS BELOW
For cases from federal courts:
The opinion of the United States Filth Circuit Court of Appeals appears at
Appendix “A” to the petition and Is
reported at Derrick Edwards v. Darrel Vannoy. : COA No. 20-30636

The opinion of the United States Western District Court of Louisiana appears at
Appendix “B” to the petition and Is unpublished,
Derrick Edwards v. Darrel Vannoy. USDC No. 5:18CV-1007
For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix “C” to the petition and is reported at
State v. Derrick Edwards. : No. 2015-K-0628 (2/5/2016); 186 So 3d 1163.
The opinion of the Louisiana Second Circuit Court of Appeal
appears at Appendix “D” to the petition and Is reported at
State v. Derrick Edwards.: No. 49,635-KA, (2/26/15); 162 So. 3d 512.
The opinion of the District Court on Post Conviction for the State of Louisiana
appears at Appendix “E” and Is unpublished.

1

JURISDICTION
For cases from federal courts:
The date on which the United States Fifth Circuit Court of Appeals decided my case
was May 21, 2021.
No petition for rehearing was timely filed in my case.

For cases front state courts:
The date on which the highest state court decided my case was February 5,2016.
A copy of that decision appears at Appendix “C”.

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1). This petition is
timely pursuant to 28 U.S.C. § 2101 (c).

2

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
Fifth Amendment to United States Constiution: “No person shall... be deprived of life,
liberty, or property, except by due process of law...”
Sixth Amendment to United States Constitution: “In all criminal prosecutions, the
accused shall enjoy the right... to have compulsory process for obtaining witnesses in his
favor, and to have the assistance of counsel for his defense.”
Fourteenth Amendment, Section 1, to United States Constitution: ”... nor shall any state
deprive any person of life, or property without due process of law....”
Louisiana Statute 14:31.

3

STATEMENT OF THE CASE
A. STATE COURT PROCEEDINGS

Derrick Edwards was indicted by the Grand Jury for one count of second
degree murder, in violation of Louisiana Revised Statute 14:30.1, for the murder of
Tyrone Miles, which occurred on June 4,2011. On August 15,2011, Mr. Edwards, with
counsel John Bokenfohr, was arraigned and entered a plea of not guilty. On January
28, 2014, Mr. Edwards' trial began before a jury for the charge of second degree
murder. On January 30, 2014, Mr. Edwards was found guilty as charged. On March 3,
2014, Mr. Edwards was sentenced to life imprisonment for the charge of second
degree murder. On February 26, 2015, the Second Circuit Court of Appeals rendered
a judgment affirming Mr. Edwards conviction and sentence.(See Stale v. Edwards,
No. 49,635-KA, 2/26/15)

The Louisiana Supreme Court followed suit denying

certiorari on February 5, 2016. (See State v. Edwards, No. 2015-K-0628 2/5/2016).
Petitioner then filed an application for post conviction relief in the First Judicial District
Petitioner submitted his Uniform Application for Post Conviction Relief in August, 2016.
Judge Brady D. O'Callaghan delivered the judgment of the lower court denying
Petitioner's Application in it's entirety on September 26, 2016. App. At “D”

The

Second Circuit denied writs on December 2, 2016. App. “E”. The Louisiana Supreme
Court followed suit on April 20, 2018. App.“ F”.

4

B. FEDERAL COURT PROCEEDINGS
Edwards timely filed a federal petition for habeas corpus under 28’UTS:Cr§224tret
seq., raising three issues: (1) denial by his trial counsel of his constiutiona! right to testify,
and, (2) ineffective assistance of counsel for his trial counsel's failure to object (3)
unconstitutional burden shifting jury instruction.
A federal Magistrate Judge recommended that Edward's petition be denied and
dismissed with prejudice.
Federal District Court Judge adopted the magistrate's recommedations.
The Fifth Circuit Court of Appeals denied COAon May 21,2021.
Petitioner now comes to this Honorable Court for relief.
STATEMENT OF FACTS
On June 4, 2011, Derrick Edwards was involved in a disagreement with his
daughter (TR pg. 270). Derrick Edwards did not agree with his daughter, who was a
minor, aged 17 at the time, having a relationship with a 27 year old adult male named
Tyrone Miles. (TR pgs. 145, 301). Subsequently, Derrick Edwards and Tyrone Miles
were involved in a fight on West 74lh Street in Shreveport Louisiana (TR pgs. 268).
After the fight was over, Tyrone collapsed and ultimately died at the hospital.
First, the State called Katrina Brown to the stand. She testified that Tyrone Miles
went into the street to fight Derrick Edwards (TR pg. 277). Then, she saw Derrick
Edwards and Tyrone Miles fight in the street (TR pg. 299). Although she saw the fight,
she did not realize that Miles had been stabbed until he said that he had been
stabbed. (TR pg. 277).

5

The State then called Shanderricka Biwards. Shan denicka is the daughter of
Derrick Edwards. She thought that Derrick Edwards had told Tyrone that he would
bust his but (TR pg. 328). At some point, she was holding Tyrone's arm, but Tyrone
broke away from her and went into the street where her father was. After Tyrone ran
into the street, the fight ensued. Although she saw the fight, she did not hear what was
being said by Derrick or Tyrone and she did not see Tyrone get stabbed. On cross
examination, she testified that that once “Tyrone” stopped fighting, Derrick did not
follow him.
Hie State also called Patricia Carthron. She testified that Derrick Edwards did
not approve of his daughter seeing Tyrone Miles because she was 17 years old. She
too told Tyrone Miles not to go into the street to fight Derrick. But he snatched away
from Shanderricka and went into the street anyway, (clearly the aggressor). However,
the street lights were out and they could not see exactly what was going on.
The State called Corporal Jennie Taylor who testified that she was the first law
enforcement to arrive on the scene. Derrick Biwards made contact with her and told
her that he had been in a fight with Tyrone and that he had stabbed him. He gave
Corporal Taylor the knife that had been used. On cross examination, Corporal Taylor
testified that Derrick immediately informed her of what happened and was cooperative
and polite.
The defense called a number of witnesses to rebut the state's witnesses but not
Derrick Edwards. The jury returned a verdict of guilty to second degree murder and Mr.
Edwards was sentenced to life imprisonment w/o benefits.
6

REASONS FOR GRANTING THE PETITION
There are two questions of law to be settled here: (1) whethef the State of Louisiana's
jury instmction on manslaughter comports with the requirements of the Due Process Clause
of the Fourteenth Amendment that the prosecution must prove beyond a reasonable doubt
every fad necessary to constitute the crime charged; (2) whether trial counsel was ineffective
for not objecting to the unconsttutional jury charge.
The Louisiana and Federal courts erred in their decision denying petitioner's
claims relief.
The petitioner alleges (1) Trial court erred in giving erroneous burden shifting
jury instruction on manslaughter a due process violation; U.S. Const. 5th &14th;
(Mullaney v. Wilber, 421 U.S. 684; {Sandstmmv, Montana, 442 U.S. 510,99 S. a.
2450) (2) that counsel failed to object to unconstitutional burden shifting jury
instructions, clearly deficient and prejudice performance, and an evidentiary hearing
was required to ascertain the truth of this gross ineffectiveness by counsel.
Strickland v. Washington, 466 U.S. 668 (1984).
Claim I asserts trial judge denied petitioner a fair trial by giving burden shifting
instructions. Petitioner now contends that the trial judge, in his charge to the jury,
erroneously stated in his instructions to the jury that:
“The defendant bears the burden to prove, by a
preponderance of the evidence, that he acted in “sudden
passion or heat of blood” in order for a verdict of
Manslaughter to be appropriate.” ( See, Charge to the
Jury, TR Tpg 613, Ex. B).

7

This jury instruction clearly instructed the jury that the burden of proof was of the
defendant to prove something. This prejudiced the defendant by denying him His
presumption of innocence, and denied him a fair trial, causing a miscarriage of justice.
The defendant in this case did not testify.

The Trial Judge gave this erroneous

instruction to the jury, leading the jury to believe that the defendant had to prove
something in order for them to consider returning a verdict of manslaughter, along with
the fact that the defendant did not testily, mislead the jury into believing that they could
not consider this particular responsive verdict because the defendant did not prove it.
Petitioner next alleged that his trial attorney failed to object to burden shifting
instructions given to the jury on the responsive charge of manslaughter. The judge in
denying this claim erroneously states that this claim was "already addressed on
appeal by the Second Circuit in Footnote 3 of their opinion..." The Judge is in error.
This claim of Burden Shifting instruction was not brought before the Second Circuit on
direct appeal and has never been ruled on as a state or constitutional violation.
In his instructions to the jury, Honorable Judge O'Callaghan gave the following
instruction to the jury:
“The defendant bears the burden to prove, by a
preponderance of the evidence, that he acted in “sudden
passion or heat of blood” in order for a verdict of
Manslaughter to be appropriate.” ( See, Charge to the Jury,
TRTpg 613, Ex. “B").
By these giving these instructions to the jury the Court effectively shifted the
burden of proof to the defendant, thereby removing his presumption of innocence
unless he proved it. Counsel made a very serious error here in failing to object to this
8

erroneous instruction of the trial court.
By failing to object to the trial court's instruction, counsel was ineffective'andthe
effect of this ineffectiveness denied petitioner his right to a fair trial. There is a
reasonable probability that the result of the proceeding would have been different if the
jury had been correctly instructed. It should be noted that the court did not address this
allegation under deficiency of trial counsel.
The post conviction court erred in making a decision on these allegations of
ineffective assistance of counsel without holding an evidentiary hearing to ascertain
the truth, which if these allegation prove true would grant petitioner relief.
Petitioner disagrees with the state's rulings as they are contrary to dearly
established federal law. See, Mutlaney v. Wilber, 421 U.S. 684, 95 S. Ct. 1881, 44 L.
Ed. 2d 508; Sandstrom v. Montanaf 442 U.S. 510, 99 S. Ct. 2450; Strickland v.
Washington, 466 U.S. 668 (1984);
The rulings of the Louisiana Courts in this case are in conflict with Mullaney,
Sandstrom, and Strickland, supra, and the Sixth Amendment, and is a departure
from clearly established Federal law, as determined by the Supreme Court of the
United States and an unreasonable determination of facts in light of the evidence
presented in the State court proceedings.
These issues presented below are clearly ripe for review by this Honorable
Court to decide the important question of the instruction's constitutionality.

9

CLAIM NO. 1
Trial court erred in giving erroneous burden
shifting jury instruction on manslaughter
a due process violation; U.S. Const. 5th &14th;
(Mullaney v, Wilber, 421 U.S. 684)
(Sandstmm v. Montana, 442 U.S 510, 99 S Ct. 2450)
The State of Louisiana requires a defendant charged with murder, which upon
conviction carries a mandatory sentence of life imprisonment, to prove that he acted in
the heat of passion on sudden provocation in order to reduce the homicide to
manslaughter, in which case the punishment is a fine or imprisonment not exceeding
40 years. This rule is vidative of the Due Process Clause of the Fourteenth
Amendment that the prosecutor must prove every fad necessary to constitute the
crime charged, In re Winship, 397 U.S. 358, 90 S. Ct. 1068, 25 L. Ed. 2d 368, and
unconstitutionally shifts the burden of proof to the defendant. To satisfy that
requirement, the prosecution in a homicide case in Louisiana must prove beyond a
reasonable doubt the absence of heat of passion on sudden provocation when the
issue is property presented. Mullaney v. Wilber, 421 U.S. 684, 95 S. Ct. 1881, 44 L.
Ed. 2d 508.
In Mullaney v. Wilber, supra, the Supreme Court stated "...historical review
establishes two important points. First, the fact at issue here - the presence or
absence of the heat of passion on sudden provocation - has been, almost from the
inception of the common law homicide, the singe most important factor in determining
the degree of culpability attaching to an unlawful homicide. And, second, the dear
trend has been toward requiring the prosecution to bear the ultimate burden of proving
10

this fact. See generally Fletcher, supra, n. 16; H. Packer, The limits of the Criminal
Sanction 137-139 (1968).
Petitioner new contends that the trial judge, in his charge to the jury, erroneously
stated in his instructions to the jury that:
“The defendant bears the burden to prove, by a
preponderance of the evidence, that he acted in “sudden
passion or heat of blood” in order for a verdict of
Manslaughter to be appropriate.” ( See, Charge to the
Jury, TR T pg 613, Ex. B).

This jury instruction clearly instructed the jury that the burden of proof was of the
defendant to prove something. This prejudiced the defendant by denying him his
presumption of innocence, and denied him a fair trial, causing a miscarriage of justice.
The defendant in this case did not testily. The Trial Judge gave this unconstitutional
burden shifting instruction to the jury, leading the jury to believe that the defendant had
to prove something in order for them to consider returning a verdict of manslaughter,
along with the fact that the defendant did not testify, mislead the jury into believing that
they could not consider this particular responsive verdict because the defendant did
not prove it.
Louisiana law requires a defendant to establish by a preponderance of the
evidence that he acted in the heat of passion on sudden provocation in order to
reduce murder to manslaughter. Under this burden of proof a defendant can be given
a life sentence when the evidence indicates that it is as likely as not that he deserves
a significantly lesser sentence. This is an intolerable result in a society where, to

11

paraphrase Mr. Justice Harlan, it is far worst to sentence one guilty only of
manslaughter as a murderer than to sentence a murderer for a lesser cnme of
manslaughter in re Winship, 397 U.S., at 372, 90 S. Ct., at 1076 (concurring
opinion).
Adequate jury instructions are those which fairly and reasonably point out the
issues and which provide the correct principles of law for the jury to apply to those
issues. The trial judge is under no obligation to give any specific jury instructions that
may be submitted by either party; the judge must, however, correctly charge the jury.
Doyie v Picaditly Cafeterias, 576 So. 2d 1143 (La App. 3d Cir. 1991).
If the court gives misleading, confusing instructions, then such instructions do
not adequately set forth the law and may constitute reversible error. Smart v. Kansas
City Southern R. R (La. App. 2d Cir. 2002) 830 So 2d 581.
Correlative to a judge's duty to charge the jury as to the law applicable in a case
is a responsibility to require that the jury receives only the correct law. Meiancon v.
Sunshine Construction, Inc.., 712 So 2d 1040 ,> Doyie, 576 So 2d at 1152.
The instruction was not only unconstitutional, but was highly prejudicial when it
is considered that the defendant claimed the stabbing was an accident and a
response to a real perceived danger to himself. Accordingly, if the jury believed the
defendant's version that the stabbing was accidental and that he was acting out of
fear, they would have been duty-bound at the very least to return a verdict of
manslaughter.

12

The Louisiana Supreme Court in State v. Williamson, 389 So.2d 1328,1331
(La. 1980), found that an erroneous jury instruction was renewable, stating:
... it is within the province of this reviewing court to
entertain complaint of Constitutional violations on appellate
review notwithstanding that consideration of such complaint
more often that not is deferred until filing of a writ of habeas
corpus. This Court's usual pretermission of such issues
stems from the need of an evidentiary hearing which can
only be had incident to the writ of habeas corpus. The record
before us, however, bears lull and sufficient proof of the error
which no posterior hearing could augment.
Thus, our jurisprudence provides sufficient authority for review of the alleged
erroneous jury charge despite the lack of a contemporaneous objection.
The instruction which defined “sudden heat and passion* as the "burden* of the
defendant in a manslaughter instruction was unconstitutional, erroneous, and
prejudicial, depriving petitioner of his right to due process of law, and therefore, the
conviction must be reversed.
CLAIM NO. 2
Whether petitioner was denied his constitutional right to have effective
assistance of counsel when (1) Counsel failed to object to unconstitutional
burden shifting jury instruction given by court in violation of the 5th, 14th, 6th,
Amendment to the U.S. Constitution; and Article of the Louisiana Const.

The right to counsel, which is guaranteed in the Sixth Amendment to the United
States Constitution and under Article 1, § 16 of the Louisiana Constitution, “is a
fundamental right of criminal defendants; it assures the fairness, and thus the
legitimacy, of our adversary process." Gideon v, Wainwright, 372 U.S. 335, 344, 83

13

S.Ct. 792, 796, 9 L. Ed.2d 799 (1963). Without counsel, the right to a fair trial itself
would be meaningless, for it is only through counsel that the accused may securehis
other rights.
The essence of an ineffective assistance claim is that counsel’s unprofessional
errors upset the adversarial balance between the defense and prosecution, rendering
the trial unfair and the verdict suspect. Strickland v. Washington, 466 U.S. 668,104
S.Ct. 2052, 80 L. Ed.2d 674 (1984). In order to prevail to prevail on such a claim, one
must show both that counsel’s representation fell below an objective standard of
reasonableness, and that there exists a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.

In his instructions to the jury, Honorable Judge O'Callaghan gave the following
instruction to the jury:
"The defendant bears the burden to prove, by a
preponderance of the evidence, that he acted in "sudden
passion or heat of blood” in order for a verdict of
Manslaughter to be appropriate.” (See, Charge to the Jury,
TR T pg 613, Ex. “B’’).
By these giving these instructions to the jury the Court effectively shifted the burden of
proof to the defendant, thereby removing his presumption of innocence unless he
proved it. Counsel made a very serious error here in failing to object to this erroneous
instruction of the trial court.
By failing to object to the trial court's instruction, counsel was ineffective and the
effect of this ineffectiveness denied petitioner his right to a fair trial. There is a
reasonable probability that the result of the proceeding would have been different if the

14

jury had been correctly instructed.
The general law is that an error may not be accessed on appealTmless a timely
contemporaneous objection is made. Nevertheless, the jurisprudence has carved out
an exception to this rule where such alleged trial errors raised overriding due process
considerations. > State v, Gaddis, ( La. App. 2d Cir. 3/14/03), 839 So 2d 1258; State
v Lowery, (La. App. 2d Cir. 2/28/01 ) 781 So 2d 713.
The failure to object timely to a jury instruction is subject to plain error review.
See.lLS v. Fuchs, 467 F. 3d 889,901, (the court will reverse only if (1) there was an
error, (2) that was dear and obvious, and (3) that affected the defendant's substantial
rights causing a miscarriage of justice.).
Trial counsel was ineffective for not objecting to this faulty jury instruction, which
thereby prejudiced and denied petitioner a fair trial.
DEFICIENT PERFORMANCE AND PREJUDICE
Petitioner avers that he has fulfilled the first prong of Strickland, supra, by
demonstrating that his trial attorney’s performance was deficient. He has identified
spedfic instances of his trial attorney's omissions and that he has a right to effective
assistance of counsel.

In being effective, petitioner's attorney owed him a duty to

protect his rights, but failed to object to a dearly unconstitutional jury instruction. This
error should be deemed to be of suffident gravity to have undermined the fundamental
fairness of the trial itself. See Neatyy. Cabana, 764 F.2d 1173 (5th Cir. 1985).
Next, petitioner intends to show that this defident performance of his trial
attorney prejudiced him by depriving him of a fair trial, i.e., a trial whose result is
15

reliable.

Defense Counsel's conduct truly undermined the proper functioning of the

adversarial process in that the trial cannot be relied on as having produced a just
result. This was a grave error on the part of petitioner's trial counsel.

Petitioner

should not be made to suffer continual incarceration due to his trial counsel's grave
errors. Instead, his trial counsel should be made to answer, in an evidentiary hearing,
as to why he failed to provide effective and reasonable assistance of counsel to his

client.
For the foregoing facts and law in relation thereof, petitioner’s trial counsel
should be deemed to have provided him ineffective assistance of counsel at the trial
stage.

Petitioner's sentences and convictions should therefore be reversed and

remanded for a new trial in the district court for having wrongfully convicted him of
second degree murder.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
Derrick Edwards # 621889
Date: Julv£? b>. 2021

16

